July 1, 2010

EDUARDO H. RUIZ
DISTRICT MANAGER, LOS ANGELES DISTRICT

SUBJECT:          Audit Report – City Delivery Efficiency Review – Los Angeles District
                  (Report Number DR-AR-10-006)

This report presents the results of our audit of City Delivery Efficiency Review – Los
Angeles District (Project Number 10XG005DR000). This self-initiated audit addresses
operational risk and is the first in a series conducted by the U.S. Postal Service Office of
Inspector General (OIG). Our objectives were to assess the overall efficiency of city
delivery operations and identify opportunities to reduce operating costs within the Los
Angeles District. See Appendix A for additional information about this audit.

The U.S. Postal Service is delivering fewer pieces of mail to a growing number of
addresses as new households and businesses are added to the delivery network each
year. Accommodating this new growth, while facing financial loss from declining mail
volume and rising costs, demands that the Postal Service achieve unprecedented levels of
efficiency.

Conclusion

The Los Angeles District was not operating at peak efficiency and could reduce city delivery
operating costs. Our benchmarking comparison determined the Los Angeles District used
approximately 26 minutes more per day than the national average for each carrier route, as
compared to the standard for that route. The measurement for this, called “percent to
standard,”1 was 124.17 - about 17 percentage points above the national average of 107.19
percent.




1
  A measure of carrier office workhour performance in relation to mail volume and delivery points. A figure of 100 percent
indicates that office performance is at the stated performance goal. A figure greater than 100 percent indicates
performance is less than the desired standard.
City Delivery Efficiency Review - Los Angeles District                           DR-AR-10-006



Operation Efficiency

Although numerous factors were involved, our review of 25 randomly selected delivery
units confirmed these inefficiencies and determined Los Angeles District management did
not always (1) provide sufficient review and oversight of unit offices’ operating efficiencies
and (2) coordinate with the mail processing facility to ensure mail was timely received and
in a condition that promoted office operating efficiency. Elimination of time-wasting
practices and increased focus on efficiency could allow management to reduce workhours.
Some examples include ensuring that:

       Morning and afternoon office expectations are established with carriers.

       Unscheduled leave is effectively managed.

       Carriers do not resort mail that is already in delivery point sequence (DPS) and
        ready for delivery.

       Management conducts efficient vehicle inspections.

       Carriers do not have to wait for mail from the processing facility.

       DPS mail received from the mail processing facility is organized on shelved
        containers, so that carriers can easily identify and retrieve it for their routes.

See Appendix B for additional information about these issues.

Consequently, the Los Angeles District used more workhours than necessary to deliver the
mail. Making adjustments to its operations would increase the Los Angeles District’s overall
efficiency and allow them to reduce approximately 298,000 operating workhours, resulting
in savings of about $10.5 million annually or more than $105 million over 10 years. See
Appendix C for additional information about this issue.

We recommend the district manager, Los Angeles District:

1. Reduce the Los Angeles District’s workhours by 298,260 to achieve an associated
   economic impact of over $105 million over 10 years.

2. Periodically evaluate units’ operating efficiency and staffing to determine whether further
   workhour adjustments are necessary based on workload.

3. Reinforce Postal Service policy and procedures for supervising city delivery office
   operations in delivery units and eliminate time-wasting practices as appropriate.

4. Require processing facility managers and delivery managers to coordinate, review, and
   update all Integrated Operating Plans to ensure mail arrives timely and in the condition
   necessary to promote office efficiency.




                                                         2
City Delivery Efficiency Review - Los Angeles District                          DR-AR-10-006




Management’s Comments

Management agreed with the findings, recommendations and monetary impact in our
report. In response to recommendation 1, management stated that an opportunity exists to
save at least the workhours recommended in the report. As of week 37, fiscal year (FY)
2010, the Los Angeles District has reduced 502,953 hours in city delivery for the same
period last year (SPLY). The Los Angeles District expects to achieve a 650,000 reduction
of city delivery workhours to SPLY by the end of FY 2010 with an expected savings of
$26,650,000 in salaries and benefits.

For recommendation 2, management stated that the focus on efficiency has become a
heightened topic of discussion at all levels of district management. Each station has a
carrier flowchart that reflects the approved activity of a letter carrier in the morning as well
as the afternoon. Management indicated they would discuss this flowchart at a stand-up
talk with all letter carriers and strictly enforce its implementation by August 20, 2010.

In response to recommendation 3, management stated that they immediately curtailed the
casing of DPS and advertising mail discovered by the OIG in certain units. Management
also indicated that they discussed the prohibition of casing this mail at the weekly
postmaster/station manager meeting and instructed each postmaster/station manager to
give a stand-up talk to the letter carriers on this issue by July 30, 2010.

For recommendation 4, management indicated that the Customer Service Operations staff
would work with the processing plant to ensure the proper preparation and stacking DPS
mail. The plant has a process in place to ensure all DPS mail sent to the delivery units are
properly stacked, which should minimize work for letter carriers. See Appendix D for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations,
findings, and monetary impact. Management’s corrective actions taken and planned should
resolve the issues identified in the report.

The OIG considers recommendation 1 significant and, therefore, requires OIG concurrence
before closure. Consequently, the OIG requests written confirmation when corrective
actions are completed. This recommendation should not be closed in the Postal Service’s
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                                         3
City Delivery Efficiency Review - Los Angeles District                       DR-AR-10-006




We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, director, Delivery, or
me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachment

cc:     Patrick R. Donahoe
        Steven J. Forte
        Dean J. Granholm
        Drew Aliperto
        Mark H. Anderson
        Elizabeth A. Schaefer
        Phillip F. Knoll
        Sally K. Haring




                                                         4
City Delivery Efficiency Review - Los Angeles District                       DR-AR-10-006



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Delivery operations are the Postal Service’s largest operational function, accounting for
approximately 45 percent of salary expenses and workhours. Despite an annual increase of
approximately 1 million delivery points, delivery operations used 36.5 million fewer
workhours in FY 2009 because of effective growth management, increased use of
automation, standardization of best practices, and improved productivity. Although delivery
operations used fewer workhours, workhour reduction has not kept pace with declining mail
volume. Nationally, mail volume declined by 12.7 percent in FY 2009. During this same
period, mail volume declined in the Los Angeles District by 26.7 percent, while workhours
declined by 9 percent.

Although the Postal Service has achieved significant gains in automated mail processing,
mail delivery remains primarily a manual process. To effectively manage this manual
process and improve productivity, delivery managers must eliminate process inefficiencies
and manage costs.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess the overall efficiency of city delivery operations and identify
opportunities to reduce operating costs within the Los Angeles District. To accomplish our
objectives, we:

       Ranked the eight areas from highest to lowest in terms of percent to standard from
        January 1 through December 31, 2009. We used the national percent to standard of
        107.19 percent for January 1 through December 31, 2009, as a baseline guide.

       Judgmentally selected the Pacific Area and, within that area, the Los Angeles
        District for review, because of its high percent to standard (124.17 percent)
        measure.

       Randomly selected 25 of 64 delivery units within the Los Angeles District for review.

 At the selected delivery units, we:

       Obtained, reviewed, and analyzed delivery unit data related to office operations.

       Conducted interviews on-site and obtained information on carrier operations, unit
        operations, processes, and procedures.

     Physically     observed office delivery operations.




                                                         5
City Delivery Efficiency Review - Los Angeles District                                          DR-AR-10-006



       Reviewed documentation and applicable policies and procedures for city delivery
        and Postal Service Handbooks M-392 and M-41.3

We conducted this performance audit from February through July 2010 in accordance with
generally accepted government auditing standards and included such tests of internal
controls, as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We discussed our observations and conclusions
with management on June 3, 2010, and included their comments where appropriate.

We relied on data primarily from eFlash4 and web Enterprise Information System (webEIS).
We obtained data from January 1 through December 31, 2009, but did not test controls
over these systems. However, we checked the reasonableness of results by confirming our
analysis and results with management and other data sources.

The OIG identified three audits related to our objective that were issued over the past 6
years:




2
  Handbook M-39, Management of Delivery Services, March 1998.
3
  Handbook M-41, City Delivery Carriers Duties and Responsibilities, March 1998.
4
  A weekly operating report management system that combines data from delivery, mail processing, employee relations,
labor relations, and finance. The information is extracted from various host systems and loaded into eFlash.




                                                          6
       City Delivery Efficiency Review - Los Angeles District                                  DR-AR-10-006




       PRIOR AUDIT COVERAGE

                                             Final
                       Report               Report           Monetary
  Report Title        Number                 Date             Impact Report                      Results
City Delivery       DR-AR-10-002          12/18/2009        $21,308,433 The audit concluded the Napoleon Street
Efficiency                                                               Station was not operating at peak
Review – San                                                             efficiency, and management could reduce
Francisco                                                                city delivery costs. Our benchmarking
Napoleon                                                                 comparison of five similar delivery units
Street Station                                                           showed this station used 54,975 more
                                                                         workhours than necessary. We also found
                                                                         management did not adjust workhours to
                                                                         the changes in workload. Management
                                                                         agreed with our findings and
                                                                         recommendations to correct the issues
                                                                         identified.
Timely City         DR-AR-08-001          10/11/2007            N/A      The audit confirmed the Chicago District
Delivery –                                                               had difficulty with timely mail delivery.
Chicago District                                                         Specifically, delivery performance indicators
                                                                         showed office performance was well below
                                                                         standard and street performance was at an
                                                                         all-time low. Management agreed with our
                                                                         findings and recommendations to correct
                                                                         the problems.
Capping Report      DR-AR-06-004          3/31/2006          $7,061,060 This audit summarized a series of five
City Letter                                                              reports on city letter carrier operations.
Carrier                                                                  Specifically, delivery facility supervisors and
Operations                                                               managers could more effectively match
                                                                         workhours with workload and improve
                                                                         delivery efficiency by consistently using
                                                                         operational data from the Delivery
                                                                         Operations Information System.
                                                                         Management agreed with our findings and
                                                                         recommendations to correct these
                                                                         problems.




                                                                7
City Delivery Efficiency Review - Los Angeles District                                           DR-AR-10-006



                                  APPENDIX B: DETAILED ANALYSIS

Operation Efficiency

The Los Angeles District used 298,260 more workhours than necessary. Our benchmarking
comparison determined the Los Angeles District’s “percent to standard” measurement was
17 percentage points above the national average (124.17 percent compared to the national
average of 107.19 percent). In other words, the district used approximately 26 minutes5
more per day on carrier routes than the average carrier route in the nation. From January 1
through December 31, 2009, the Los Angeles District ranked eighth in terms of “percent to
standard” within the Pacific Area. See Table 1.

            Table 1. National and Pacific Area Percent to Standard Comparison
                           January 1 through December 31, 2009

                                                               Percent to
                                                               Standard            Ranking
                      National Average                          107.19               N/A

                      Districts in Pacific Area
                      Honolulu 103.63                                                   1
                      San Diego                                  109.02                 2
                      Sierra Coastal                             112.80                 3
                      Sacramento 113.56                                                 5
                      Santa Ana                                  115.56                 4
                      Bay Valley                                 119.27                 6
                      San Francisco                              123.92                 7
                      Los Angeles                                124.17                 8
                     Source: eFlash

This condition occurred, because management did not always (1) provide sufficient review
and oversight of unit offices’ operating efficiencies, and (2) coordinate with the mail
processing facility to ensure mail was timely received and in the condition necessary to
promote office operating efficiency.

Setting Morning and Afternoon Office Expectations

Supervisors did not always set expectations for morning office operations nor effectively
manage afternoon office time at eight of the 25 units observed. For example, supervisors
often printed the Route Carrier Daily Performance Report, but did not always discuss the
report with carriers. If a carrier does not meet performance standards, a supervisor must
investigate and discuss any performance deficiencies with the carrier.
5
 17,895,600 minutes (298,260 hours x 60 minutes per hour) divided by 2,241 routes in the Los Angeles District (routes
operating above the national average percent to standard) divided by 302 annual delivery days per year equals
approximately 26 minutes per carrier route per day.




                                                           8
City Delivery Efficiency Review - Los Angeles District                                              DR-AR-10-006



We observed some carriers spending up to 30 minutes in the office after returning from
their routes. Postal Service policy allows a standard 5 minutes for carriers to perform
afternoon office duties. We also observed carriers not clocking directly to “office time” upon
returning to the unit in the afternoon, resulting in much of this additional office time” being
included in street operations time. Although the Los Angeles District has tried to reduce
office time with the development of an “undeliverable mail tray,”6 carriers have been
reluctant to use this process, and supervisors were not enforcing its practice. See
Illustration 1.

                              Illustration 1: Unused Undeliverable Mail Tray at
                                   Carrier’s Case after Returning to Office




             Source: OIG

Unscheduled Leave

Supervisors did not have sufficient control of unscheduled absences such as sick leave. In
fact, the sick leave rate totaled 5 percent or more for several of the units visited during our
review. According to a recent OIG report on absenteeism, a 5-percent sick leave rate is
more than three times the rate for private industry.7 Because of these absences,
supervisors must unexpectedly cover routes with carriers who may be unfamiliar with the
route, sometimes causing additional office time.

The Los Angeles District is addressing high carrier sick leave percentages by training all
unit management employees in this area. The Los Angeles District also stated that
appropriate administrative action will take place for employees who do not show minimal
improvement in attendance.

6
  A container carriers use to store mail that has been gathered along the route during street operations. Mailpieces such
as Undeliverable as Addressed and collection mail are brought back to the delivery unit for depositing.
7
  Postal Service Absenteeism (Report Number HM-AR-10-001, dated December 23, 2009) identified the average sick
leave rate for private industry at 1.49 percent.




                                                             9
City Delivery Efficiency Review - Los Angeles District                                                DR-AR-10-006




Handling DPS Mail

DPS letters were often cased8 instead of loaded and taken directly to the street by carriers.
Unit management immediately discontinued this practice when we brought it to their
attention. Postal Service policy9 states DPS mail is not to be distributed to carriers, but
staged near the exit. Carriers are to place DPS mail in rolling stock10 for transport to
vehicles and place sequenced mailings in parcel hampers to be taken directly to the street
without further handling. See Illustration 2.

                                 Illustration 2: Carrier Casing Sequenced Mail




             Source: OIG


Vehicle Inspections

The vehicle inspection process was not always efficient. For example, our observations
disclosed that eight delivery units lost several minutes daily due to one or more of the
issues below:

        Carriers sometimes had to search for vehicles prior to inspection, because parking
         spaces were unassigned.

        Carriers had to wait in line to get vehicle keys.




8
  The act of placing letter and flat mail in the separations located in the carrier cases. Because DPS mail is already sorted
into delivery sequence, it does not need to be cased.
9
  Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II Guidebook,
2007.
10
   Rolling stock consists of equipment or containers used to transport mail such as hampers and utility carts.




                                                             10
City Delivery Efficiency Review - Los Angeles District                                            DR-AR-10-006



Postal Service policy states that employees should park vehicles near the dock in assigned
spaces identified by individual route numbers.11 In addition, policy states employees should
make vehicle inspections promptly after clocking in for the morning. The policy also
requires vehicle keys to be located adjacent to time-recording equipment.12 See Illustration
3.

               Illustration 3: Carriers Waiting to Obtain Keys for Vehicle Inspection




               Source: OIG


Carriers Waiting for Mail from the Plant

The arrival of mail at 11 of the 25 delivery units observed did not always mirror the
Integrated Operation Plans (IOPs) agreed upon by the plant and the delivery unit. When
mail arrives at the delivery unit later than expected, carriers can be delayed in the office.
The IOP is designed to help stabilize mail flow and is critical in establishing appropriate
staffing and reporting times to ensure carriers do not have to wait for mail. Although the Los
Angeles District uses the Mail Arrival Quality System to report issues to the plant, mail flow
issues often remain unresolved. In several instances, carriers were required to wait for
Express Mail® before leaving the office or had to return to the unit from the street to obtain
Express Mail. District management stated the untimely arrival of Express Mail is an area
needing improvement, and they are discussing solutions to resolve the issue.




11
   Postal Service Handbook M-41, City Delivery Carriers Duties and Responsibilities, Section 922.51(f), dated March 1,
1998.
12
   Postal Service Handbook M-39, Management of Delivery Services, Section 117.1(b), dated March 1, 1998.




                                                           11
City Delivery Efficiency Review - Los Angeles District                                              DR-AR-10-006




Unnecessary Rehandling of DPS Mail Trays

DPS letters the plant processes often arrive at the delivery unit in un-shelved mail13
transport containers. The mail in these containers is not easily identifiable or retrievable by
carriers as they depart for street operations. Carriers were frequently delayed in the office
5 minutes or more daily retrieving DPS mail. Postal Service policy14 states mail processing
should stage DPS letters for transport in shelved or modified containers so individual trays
do not have to be rehandled at the delivery unit. See Illustration 4.

                                        Illustration 4: Unshelved DPS Mail




      Source: OIG


By reviewing workhour and workload utilization and improving oversight of office
processes, management would increase the Los Angeles District’s efficiency, thereby

13
   Unshelved mail refers to DPS mail that is received by the delivery unit in containers not easily identifiable by route.
Trays for each route are stacked directly on trays of other routes without shelves in between.
14
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II Guidebook,
2007.




                                                            12
City Delivery Efficiency Review - Los Angeles District                    DR-AR-10-006



saving approximately $10.5 million annually, or over $105 million over 10 years. See
Appendix C.




                                                         13
   City Delivery Efficiency Review - Los Angeles District                                            DR-AR-10-006



                                      APPENDIX C: MONETARY IMPACT

              Finding                            Impact Category                                   Amount
        Operating Efficiency                 Funds Put to Better Use15                          $105,056,064




   We estimated the monetary impact of $105,056,064 in funds put to better use by reducing
   298,260 workhours at delivery units in the Los Angeles District. This amount included an
   estimated cost savings of $101,371,292 from reducing city letter carrier positions over 10
   years and $3,684,772 in reduction of delivery office overtime workhours over 2 years

                        Table 2. Los Angeles District Station Workhour Savings
                                                                      10-Year
                                                                     Projection           2-year
                                                                   Based on Full-      Projection of
                                           Estimated                    Time           Savings from
                                          City Delivery             Equivalents’       Partial FTEs’
                  Delivery       Total     Workhours                   (FTEs)            Overtime    Estimated Total
  District        Units16       Routes       Saved17                 Reduction          Workhours        Savings
Los Angeles         53            2,241 298,260                      $101,371,292        $3,684,772 $105,056,06    4
Source: OIG

       We calculated funds put to better use of FTEs over 10 years using the FY 2011 city
        carrier level 2 fully loaded, labor rate with an escalation factor of 1.5 percent.

       To determine the reduction of city carrier FTE positions, we used a cash flow analysis
        based on city carrier complement and attrition from WebEIS for FYs 2005 through 2009.
        We used this to determine how many city letter carriers are estimated to leave in future
        years.

       We used the discount rate of 3.5 percent based on the Postal Service’s Decision
        Analysis Report Factors (cost of borrowing rate).

       We calculated funds put to better use for reducing city carrier hours not equivalent to a
        FTE using the city carrier overtime rate for FY 2011 with an escalation factor of 1.5
        percent for the 2-year projection.




   15
      Funds that could be used more efficiently by implementing recommended actions.
   16
      Cost savings were identified at 53 of 64 delivery units in the Los Angeles District.
   17
      The amount of estimated workhours the Los Angeles District can save if they improve their percent to standard from
   124.17 down to the national average of 107.19. The reduction of these hours results in a projected FTE reduction of 142
   positions over 10 years and a reduction of 49,760 overtime hours over 2 years.




                                                              14
City Delivery Efficiency Review - Los Angeles District           DR-AR-10-006



                             APPENDIX D: MANAGEMENT’S COMMENTS




                                                         15
City Delivery Efficiency Review - Los Angeles District        DR-AR-10-006




                                                         16
City Delivery Efficiency Review - Los Angeles District        DR-AR-10-006




                                                         17
